February 8, 2021
Pennsylvania Office of Attorney General
Criminal Law Division
Appeals & Legal Services Section
16th Floor, Strawberry Square
Harrisburg PA 17120
(Phone) (717) 787-1401
Scott S. Harris, Clerk
United States Supreme Court
One First Street, NE
Washington, DC 20543
RE:

Donald Mitchell Tedford v. Pennsylvania
Case No. 20-5795 (Capital Case)

Dear Mr. Harris:
By this letter and pursuant to Rule 30.4, Respondent, the Commonwealth of
Pennsylvania, is respectfully requesting an unopposed extension of four additional days’
time in which to file its brief in opposition to the petition for writ of certiorari in this
capital case, from February 8, 2021to February 12, 2021.
On September 16, 2020, Petitioner Donald Tedford filed his petition for writ of
certiorari with the Court. The petition was docketed on September 24, 2020. Pursuant to
Rule 15.3, the Respondent’s brief in opposition was originally due to be filed on or
before October 26, 2020. Respondent sought several extensions of this deadline due to
Covid-19-related reasons as well as social unrest, and this Honorable Court graciously
granted those requests and established a new filing deadline for the Respondent of
February 8, 2021.
During the past week – and particularly during the last three days – undersigned
counsel has experienced significant difficulty utilizing Westlaw’s electronic legal
research website, and more specifically, has experienced a much slower-than-normal
processing of searches on the website. The reasons for these technological difficulties are
unknown but the difficulties have slowed undersigned counsel’s ability to complete the
Respondent’s brief in opposition. Because the Office of Attorney General has essentially
closed its offices due to the Covid-19 pandemic, undersigned counsel is dependent on the
use of Westlaw in his home office for the conduct of the legal research necessary for
proper preparation of the Commonwealth’s brief.

Scott S. Harris, Clerk
United States Supreme Court
One First Street, NE
Washington, DC 20543

Page -2-

In light of these circumstances, Respondent respectfully requests the Court to find
good cause to extend the filing deadline for its brief in opposition to the petition for writ
of certiorari by four additional days until February 12, 2021. Undersigned counsel has
communicated with counsel for the Petitioner, Adam Cogan, Esquire and Attorney Cogan
has graciously indicated that he and his client do not oppose this request.
Thank you for your attention to this request.
Sincerely,
/s/WILLIAM R. STOYCOS
William R. Stoycos
Senior Deputy Attorney General

C:

Adam B. Cogan, Esquire

